Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL



    NURSING FACILITIES IN
 MISSOURI DID NOT RECONCILE
INVOICE RECORDS WITH CREDIT
  BALANCES AND REPORT THE
    ASSOCIATED MEDICAID
    OVERPAYMENTS TO THE
       STATE AGENCY


   Inquires about this report may be address to the Office of Public Affairs at
                          Public.Affairs@oig.hhs.gov




                                         Patrick J. Cogley
                                     Regional Inspector General

                                             January 2013
                                             A-07-11-03169
                    Office of Inspector General
                                    https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
             at https://oig.hhs.gov/

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. In Missouri, the Department of Social
Services (State agency) supervises the administration of the Medicaid program. Within the State
agency, the Missouri HealthNet Division administers the Medicaid program.

Providers of Medicaid services submit claims to States to receive compensation. The States
process and pay the claims. Pursuant to 42 CFR § 433.10, the Federal Government pays its share
(Federal share) of State medical assistance expenditures according to a defined formula.

Credit balances may occur when a provider’s reimbursement for services that it provides exceeds
the allowable amount or when the reimbursement is for unallowable costs, resulting in an
overpayment. Credit balances also may occur when a provider receives payments from
Medicaid and another third-party payer for the same services.

Providers record and accumulate charges and reimbursements for services in each patient’s
record of account (invoice record). Providers should reconcile invoice records with credit
balances to include a review of all charges and payment records, and, if the reconciliation
identifies a Medicaid overpayment, the provider should report the overpayment to the State. The
State must refund the Federal share of the overpayment to CMS (the Act, § 1903(d)(2)(A), and
42 CFR pt. 433, subpart F).

Effective March 23, 2010, States have up to 1 year from the date of discovery of an overpayment for
Medicaid services to recover, or attempt to recover, the overpayment before making an adjustment to
refund the Federal share. Except for overpayments resulting from fraud, the State must make the
adjustment no later than the deadline for filing the quarterly expenditure report (Form CMS-64) for
the quarter in which the 1-year period ends, regardless of whether the State recovers the
overpayment.

In general, an overpayment is discovered when a State either (1) notifies a provider in writing of an
overpayment and specifies a dollar amount subject to recovery or (2) initiates a formal recoupment
action. Discovery may also occur when the provider initially acknowledges a specific overpaid
amount in writing to the State. If a Federal review (such as an audit) indicates that a State has failed
to identify an overpayment, the overpayment is considered discovered on the date the Federal
official first notifies the State in writing of the overpayment and specifies a dollar amount subject to
recovery.
Pursuant to Missouri regulations in Rules of Department of Social Services, Division 70,
Chapter 3 (13 Code of State Regulations (CSR) 70-3), providers are required to refund Medicaid
overpayments within 45 days of notification of an overpayment, or else they may face sanctions.
However, there are no Missouri regulations specifically requiring providers to reconcile invoice
records with credit balances to determine whether overpayments exist.

This audit is part of a multistate review of credit balances at acute care hospitals, nursing
facilities, and certain noninstitutional providers. In Missouri, the audit focused on nursing
facilities.

OBJECTIVES

Our objectives were to determine whether nursing facilities reconciled invoice records with
credit balances and reported the associated Medicaid overpayments to the State agency.

SUMMARY OF FINDINGS

Generally, the eight nursing facilities that we sampled did not reconcile invoice records with
credit balances and report the associated Medicaid overpayments to the State agency. Of the 143
invoice records with both Medicaid payments and credit balances in our sample, 101 contained
Medicaid overpayments, but 42 did not. The Medicaid overpayments associated with these 101
invoice records totaled $33,419 ($21,173 Federal share). Based on these results, we estimated
that the State agency could realize an additional statewide recovery of $572,703 ($362,967
Federal share) from our audit period and obtain future savings if it enhanced its efforts to recover
overpayments in provider accounts.

The providers did not identify and report Medicaid overpayments because the State agency did
not require providers to exercise reasonable diligence in reconciling invoice records with credit
balances to determine whether overpayments existed. The reconciliation process was at the
discretion of the providers, and some providers did not reconcile invoice records for more than
1 year.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $33,419 ($21,173 Federal share) to the Federal Government for overpayments
       paid to the selected nursing facilities and

   •   enhance its efforts to recover additional overpayments estimated at $572,703 ($362,967
       Federal share) from our audit period and realize future savings by requiring providers to
       exercise reasonable diligence in reconciling invoice records with credit balances and
       reporting the associated Medicaid overpayments.
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency described corrective actions that it had
taken or planned to take in response to our recommendations.
                                                     TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
            Medicaid Program ..............................................................................................1
            Federal and State Requirements Related to Medicaid Overpayments ...............1
            Nursing Facilities ...............................................................................................2

          OBJECTIVES, SCOPE, AND METHODOLOGY .................................................2
            Objectives ..........................................................................................................2
            Scope .................................................................................................................2
            Methodology ......................................................................................................3

FINDINGS AND RECOMMENDATIONS ....................................................................4

          INVOICE RECORDS WITH UNRESOLVED CREDIT BALANCES .................4

          MEDICAID OVERPAYMENTS NOT REPORTED .............................................5

          INEFFECTIVE POLICIES AND PROCEDURES .................................................6

          MEDICAID OVERPAYMENTS AND
           ESTIMATED PROGRAM RECOVERIES .........................................................6

          RECOMMENDATIONS .........................................................................................6

          STATE AGENCY COMMENTS ............................................................................7

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: STATE AGENCY COMMENTS
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. In Missouri, the Department of Social
Services (State agency) supervises the administration of the Medicaid program. Within the State
agency, the Missouri HealthNet Division administers the Medicaid program.

Providers of Medicaid services submit claims to States to receive compensation. The States
process and pay the claims. Pursuant to 42 CFR § 433.10, the Federal Government reimburses
the State for its share (Federal share) of State medical assistance expenditures according to a
defined formula.

Credit balances may occur when a provider’s reimbursement for services that it provides exceeds
the allowable amount or when the reimbursement is for unallowable costs, resulting in an
overpayment. Credit balances also may occur when a provider receives payments from
Medicaid and another third-party payer for the same services.

Providers record and accumulate charges and reimbursements for services in each patient’s
record of account (invoice record). Providers should reconcile invoice records with credit
balances to include a review of all charges and payment records; and if the reconciliation
identifies a Medicaid overpayment, the provider should report the overpayment to the State. The
State must refund the Federal share of the overpayment to CMS (the Act, § 1903(d)(2)(A), and
42 CFR pt. 433, subpart F).

Federal and State Requirements Related to Medicaid Overpayments

Under 42 CFR § 433.312, States are responsible for recovering from providers any amounts paid in
excess of allowable Medicaid amounts and for refunding the Federal share to CMS. Effective
March 23, 2010, States have up to 1 year from the date of discovery of an overpayment for Medicaid
services to recover, or attempt to recover, the overpayment before making an adjustment to refund
the Federal share. Except for overpayments resulting from fraud, States must make the adjustment
no later than the deadline for filing the quarterly expenditure report (Form CMS-64) for the quarter
in which the 1-year period ends, regardless of whether the State recovers the overpayment.

In general, an overpayment is discovered when a State either (1) notifies a provider in writing of an
overpayment and specifies a dollar amount subject to recovery or (2) initiates a formal recoupment
action. Discovery may also occur when the provider initially acknowledges a specific overpaid
amount in writing to the State. If a Federal review (such as an audit) indicates that a State has failed
to identify an overpayment, the overpayment is considered discovered on the date the Federal
official first notifies the State in writing of the overpayment and specifies a dollar amount subject to
recovery. 1

Pursuant to Missouri regulations in Rules of Department of Social Services, Division 70,
Chapter 3 (13 Code of State Regulations (CSR) 70-3), providers are required to refund Medicaid
overpayments within 45 days of notification of an overpayment, or else they may face sanctions.
However, there are no Missouri regulations specifically requiring providers to reconcile invoice
records with credit balances to determine whether overpayments exist.

Nursing Facilities

This audit is part of a multistate review of credit balances at acute care hospitals, nursing
facilities, and certain noninstitutional providers. In Missouri, the audit focused on nursing
facilities.

Nursing facilities are establishments that provide living quarters and care for the elderly or the
chronically ill. In addition to receiving payments from Medicaid, nursing facilities may receive
payments from Medicare (which are processed by Medicare administrative contractors
(Medicare contractors)), other third-party payers (e.g. private insurance companies), and/or the
patients themselves. 2 Medicaid, as payer of last resort, pays for the remaining portion of the
claim after the Medicare, other third-party payers, and the patient surplus portions have been
paid.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether nursing facilities reconciled invoice records with
credit balances and reported the associated Medicaid overpayments to the State agency.

Scope

Our audit period covered 359 invoice records with unresolved credit balances 3 as of the quarter
ended September 30, 2011, for the 8 nursing facilities in our sample. The unresolved credit
balances totaled $211,754. The 8 sampling frames included 316 invoice records with unresolved
credit balances 4 totaling $123,299.



1
    42 CFR § 433.316.
2
    The portion of the claim that patients are financially responsible for is referred to as patient surplus.
3
    The invoice records with these credit balances also contained Medicaid payments.
4
    Each credit balance in our sampling frame was unresolved for at least 60 days.
We did not review the overall internal control structure of the State agency or the nursing
facilities that we sampled. We limited our review of the State agency’s internal controls to
determining the capabilities of the Medicaid claims processing system in preventing
overpayments and determining whether there were backlogs in processing provider adjustments
and refunds. We limited our internal control review at the eight sampled providers to obtaining
an understanding of the policies and procedures that the nursing facilities used to review credit
balances and report overpayments to the State agency.

From October 2011 through February 2012, we conducted fieldwork at the State agency’s offices
in Jefferson City, Missouri, and the eight nursing facilities at various locations throughout
Missouri.

Methodology

To accomplish our objectives, we:

   •   reviewed applicable Federal laws and regulations and State agency policy guidelines
       pertaining to Medicaid overpayments;

   •   interviewed State agency personnel responsible for monitoring Medicaid overpayments;

   •   created a sampling frame for the first stage of our sample design consisting of 75 nursing
       facilities from which we randomly selected 8 providers using the probability-
       proportional-to-size methodology (Appendix A);

   •   reviewed the providers’ policies and procedures for reviewing credit balances and
       reporting overpayments to the State agency;

   •   determined the providers’ total number and associated dollar amount of all invoices with
       credit balances and reconciled to the providers’ accounting records to identify total credit
       balances with Medicaid payments;

   •   created a sampling frame for each of the eight selected providers for the second stage of
       our sample design;

   •   selected a random sample of 30 invoice records for each of the 4 providers that had more
       than 30 invoice records and reviewed all invoice records from each of the 4 providers that
       did not have more than 30 invoice records (Appendix A);

   •   reviewed patient payment data, remittance advices, details of patient accounts receivable,
       and additional supporting documentation for each of the selected invoice records to
       determine overpayments that should be reported to the State agency;

   •   estimated statewide unrecovered Medicaid overpayments associated with unresolved
       credit balances that should be reported to the State agency;
    •   determined whether the providers had taken action, subsequent to our audit period, to
        report to the State agency the Medicaid overpayments identified in our sample;

    •   discussed our audit results with the eight providers in our sample; and

    •   provided the results of our findings to the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                              FINDINGS AND RECOMMENDATIONS

Generally, the eight nursing facilities that we sampled did not reconcile invoice records with
credit balances and report the associated Medicaid overpayments to the State agency. Of the 143
invoice records with both Medicaid payments and credit balances in our sample, 101 contained
Medicaid overpayments, but 42 did not. The Medicaid overpayments associated with these 101
invoice records totaled $33,419 ($21,173 Federal share). Based on these results, we estimated
that the State agency could realize an additional statewide recovery of $572,703 ($362,967
Federal share) from our audit period and obtain future savings if it enhanced its efforts to recover
overpayments in provider accounts.

The providers did not identify and report Medicaid overpayments because the State agency did
not require providers to exercise reasonable diligence in reconciling invoice records with credit
balances to determine whether overpayments existed. The reconciliation process was at the
discretion of the providers, and some providers did not reconcile invoice records for more than
1 year. 5

INVOICE RECORDS WITH UNRESOLVED CREDIT BALANCES

As of the quarter ended September 30, 2011, the accounting records for the 8 nursing facilities
contained 359 invoice records with unresolved credit balances totaling $211,754. Although
Medicaid had reimbursed the providers for some portion of these invoice records, the providers
had not reconciled, or otherwise evaluated, the invoice records to determine whether the
unresolved credit balances contained Medicaid overpayments that should have been returned to
the State agency.

Of the 359 invoice records with unresolved credit balances, 316 invoice records totaling
$123,299, or 88 percent, had credit balances that were at least 60 days old, and some were
unresolved for more than 1 year, as shown in the table on the following page.


5
  A Federal requirement that providers must report and repay overpayments within a certain time period was added
to section 1128J of the Act by section 6402(a) of the Patient Protection and Affordable Care Act, P.L. No. 111-148.
CMS will issue Medicaid regulations in the future to establish Federal policies and procedures to implement the law.
                    Table: Invoice Records With Unresolved Credit Balances
                                          Number of                 Unresolved
        Time Unresolved                Invoice Records            Credit Balances
        60–365 days                         308                    $115,786
        1–2 years                              7                     $4,833
        2–3 years                              1                     $2,680
          Total                             316                    $123,299

The providers did not reconcile these invoice records with unresolved credit balances because
there was no specific requirement for them to do so.

MEDICAID OVERPAYMENTS NOT REPORTED

Pursuant to Missouri regulations in Rules of Department of Social Services, Division 70,
Chapter 3 (13 CSR 70-3), providers are required to refund Medicaid overpayments within 45
days of notification of an overpayment, or else they may face sanctions. However, there are no
Missouri regulations specifically requiring providers to reconcile invoice records with credit
balances to determine whether overpayments exist.

Under Federal regulations, a State must refund the Federal share of an overpayment to CMS
within a specified period after it is discovered. The overpayment would be discovered when the
provider acknowledges the overpayment amount on the quarterly report that it submits to the
State. The State would refund the Federal share on the quarterly CMS-64 report to CMS.

The State agency’s quarterly report is similar to the report that Medicare providers are required
to submit under §§ 1815(a), 1833(e), 1866(a)(1)(C), and related provisions of the Act. 6 Both the
State agency’s quarterly report and Medicare’s report notify the appropriate officials that the
provider has determined that a credit is due to the applicable Federal program for an
overpayment.

Among the nursing facilities in our sample, the practices for reconciling credit balances and
identifying and reporting overpayments varied widely, and some of the providers did not report
Medicaid overpayments to the State agency.

Of the 143 invoice records with both Medicaid payments and credit balances in our sample, 101
contained overpayments totaling $33,419 ($21,173 Federal share). Of the eight nursing facilities
in our sample, six had Medicaid overpayments and two did not. The six nursing facilities
acknowledged that the overpayments occurred, and we verified that the providers had refunded
$9,378 ($5,957 Federal share) of the overpayments to the State agency subsequent to our audit
period.

The overpayments occurred because of billing software errors at the Medicare contractors,
changes in patient surplus amounts, and billing and accounting errors. Billing software errors
were due to the Medicare contractor system incorrectly processing certain therapy codes at an

6
    See Form CMS-838, Medicare Credit Balance Report.
incorrect rate. The patient surplus amounts were due to changes in the patients’ incomes.
Billing and accounting errors included incorrect adjustments of Medicare crossover claims and
incorrect posting of supplemental insurance payments. 7

INEFFECTIVE POLICIES AND PROCEDURES

The providers did not identify and report Medicaid overpayments because the State agency did
not require providers to exercise reasonable diligence in reconciling invoice records with credit
balances to identify and return overpayments that were due the State agency. The reconciliation
process was at the discretion of the providers, and some providers did not reconcile their invoice
records for more than 1 year.

MEDICAID OVERPAYMENTS AND ESTIMATED PROGRAM RECOVERIES

Of the 143 invoice records with both Medicaid payments and credit balances in our sample, 101
contained overpayments totaling $33,419 ($21,173 Federal share) paid to 6 nursing facilities.
The State agency should refund the Federal share of those overpayments to CMS. (See
Appendix B for details of our sample results.)

We estimated that the State agency could realize an additional statewide recovery of $572,703
($362,967 Federal share) from our audit period and obtain future savings by requiring providers
to exercise reasonable diligence in reconciling invoice records with credit balances and reporting
the associated Medicaid overpayments. (See Appendix B for details of our statewide estimate.)

RECOMMENDATIONS

We recommend that the State agency:

    •    refund $33,419 ($21,173 Federal share) to the Federal Government for overpayments
         paid to the selected nursing facilities and

    •    enhance its efforts to recover additional overpayments estimated at $572,703 ($362,967
         Federal share) from our audit period and realize future savings by requiring providers to
         exercise reasonable diligence in reconciling invoice records with credit balances and
         reporting the associated Medicaid overpayments.




7
  Individuals who are entitled to both Medicare and some form of Medicaid benefits are known as dual eligibles.
After a Medicare contractor pays a Medicare claim for a dual eligible and assesses the Medicare deductibles and
coinsurance, the contractor forwards the claim information to the appropriate State’s Medicaid program. The State
Medicaid program determines, based on the guidelines established in its State plan, whether to pay part or all of the
Medicare deductibles and coinsurance and then pays the provider through the usual Medicaid payment system. We
refer to such claims as crossover claims.
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency described corrective actions that it had
taken or planned to take in response to our recommendations.

The State agency’s comments are included in their entirety as Appendix C.
APPENDIXES
                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of nursing facilities in Missouri that received a Medicaid payment
during the quarter ended March 31, 2011. A nursing facility is identified within Missouri’s
Medicaid Management Information System (MMIS) as provider type 10 and specialty code 80.

SAMPLING FRAME

From Missouri’s MMIS, we created a database of all payments made to nursing facilities during
the quarter ended March 31, 2011. The database consisted of 158,781 claims with Medicaid
payments totaling $219,743,625, representing 507 providers. We then eliminated all providers
with less than 500 Medicaid claims. The resulting sampling frame of 54,710 claims and
Medicaid payments totaling $69,424,654 represented 75 nursing facilities.

SAMPLE UNIT

The primary sample unit was a nursing facility. The secondary sample unit was an invoice
record with a Medicaid payment and a credit balance in a provider’s account that was at least 60
days old as of the date of the most recently ended quarter.

SAMPLE DESIGN

We used a multistage sample design based on probability-proportional-to-size weighted by the
total number of Medicaid claims submitted by each provider for the quarter ended
March 31, 2011. The first stage consisted of a random selection of providers with probability of
selection proportional to the total number of Medicaid claims. The second stage consisted of a
simple random sample at each of the selected providers where the provider had more than 30
invoice records with Medicaid payments and credit balances as of the quarter ended
September 30, 2012. If the provider did not have more than 30 invoice records with Medicaid
payments and credit balances as of the quarter ended September 30, 2012, we selected all of that
provider’s invoice records with Medicaid payments and credit balances for review.

SAMPLE SIZE

We selected eight nursing facilities as the primary units. For the secondary units, we selected a
random sample of 30 invoice records with Medicaid payments and credit balances from 4
providers and all invoice records with Medicaid payments and credit balances from the
remaining 4 providers, for a total of 143 invoice records in the amount of $67,310.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services (OIG/OAS), statistical software.
METHOD OF SELECTING SAMPLE ITEMS
The sample selection used probability-proportional-to-size through which we considered the
relative sizes of the nursing facilities when selecting the primary sampling units. For the
secondary units, we consecutively numbered the invoice records with Medicaid payments and
credit balances in the sampling frame for each provider. After generating the random numbers,
we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used OIG/OAS statistical software to estimate the amount of Medicaid overpayments.
                         APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                         SAMPLE RESULTS OF MEDICAID OVERPAYMENTS


                                                     Amount of     Federal Share
                                 Nursing               Actual           of
                                 Facilities         Overpayments Overpayments
                              Provider 1                  $      0         $     0
                              Provider 2                     5,108           3,230
                              Provider 3                       768             486
                              Provider 4                     3,778           2,391
                              Provider 5                       565             359
                              Provider 6                    14,822           9,404
                              Provider 7                     8,378           5,303
                              Provider 8                         0               0
                                         Total            $33,419        $21,173

                         STATEWIDE ESTIMATE OF POTENTIAL SAVINGS 1


  Frame          Value of                                                                          Value of
   Size            Frame                                      Number                             Overpayments
  for the          for the                                       of                 Value of      in Sample
 Selected         Selected       Sample       Value of      Overpayments          Overpayments     (Federal
Providers        Providers        Size        Sample         in Sample             in Sample        Share)

   316            $123,299          143        $67,310             101                $33,419       $21,173


                                     Estimated Value of Overpayments
                           (Limits Calculated for a 90-Percent Confidence Interval)

                                 Point estimate                               $606,122
                                 Lower limit                                   $67,590
                                 Upper limit                                $1,144,654

                             Estimated Value of Overpayments (Federal Share)
                           (Limits Calculated for a 90-Percent Confidence Interval)

                                 Point estimate                               $384,140
                                 Lower limit                                   $42,463
                                 Upper limit                                  $725,816

  1
      The estimated value of overpayments includes the value of overpayments in the sample.
                                                                                                                                          Page 1 of 2


                APPENDIX C: STATE AGENCY COMMENTS




               lOur Potential. Our ,\'upport.
                                                   JEREM IAH W . ( JAY) NIXON, GOVERNOR • BRIAN KINKADE, INTERIM DIRECTOR
---m-11111wucu:aaa
                                              I' 0. B OX 1527 • !}ROADWAY              ~TAT E OHICE [) UILDI NI; • .licFI·ERS()N CITY,
                                                                                                                                 MlHl5102-1527
                                                                                         WWW.DSS.M(J.(,<JV • 57:1-75 1-481 5 • 573-75 1-3203 FAX




                                                      January 8, 2013


Patrick Cogley
Regional Inspector General for Aud it Services
Office of Inspector General
Office of Audit Services, Region VII
601 East 12th Street, Region 0429
Kansas City, MO 64106

Dear Mr. Cogley:

     This is in response to the Office of Inspector General's (OIG) draft report entitled
" Nursing Facilities in Missouri Did Not Reconcile Invoice Reco rds With Credit Balances
and Report the Associated Medicaid Overpayments to the State Agency", Report Number
A-07-11-03169. The Department of Social Services' (DSS) responses are below. The
OIG recommendations are restated for ease of reference.

     Recom mendation 1 : The OIG recommends that the State agency refund $33,419
($21,173 Federal share) to the Federal Government for overpayments paid to the
selected nursing facilities .

     DSS Response: The State's Third Party Liability (TPL) Fund Recovery contractor
has been performing credit balance audits on nursing faci lities since May 2011. Based
on the detail provided by the OIG, the State has determined that $14,780 has been
recovered through the TPL Fund Recovery audits and returned to CMS. For the
remaining overpayments of $18,639, the State will request a check from the provider.
After the State recovers these payments, the appropriate adjustment will be made to
the CMS 64.

    Recommendation 2: The OIG recommend s that the State agency enhance its efforts
to recover additional overpayments estimated at $572,703 ($362,967 Federal share)
from our audit period and rea lize future savings by requiring providers to exercise
reasonable diligence in reconciling invo ice records with credit balances and reporting the
associated Medicaid overpaym ents.

    DSS Response: With the implementation of credit balance audits by the TPL Fund
Recovery contractor, the State has realized additional savings during the audit period
and after. The State intends to continue pursuing credit balance audits through the TPL

                                                          R ELAY M ISSOURI
                                               FOR HEARING AND SI'EECH IMPAIRED
                                  1-800-735-2466 VOICE • 1-800-735-2966 TEXT PHONE

                          A11 /:lJIWI Opportunity Hmplnycr. .'.:Cfl'it'(!.t prm•id<!d 011 a nomh.w;riminafory ho.vi.~.
                                                                                         Page 2 of 2





          Cogley
Page 2

vendor until March 2013, at which time the Recovery Audit Contractor (RAC) for the
State will perform credit balance audits.

     Please contact Jennifer Tidball, Director, Division of Finance and Administrative
Services at 573/751-7533 if you have further questions.

                                             Sine rely,



                                             Brian Kinkade
                                             Interim Director

BK/ j c
